<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-399]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-399

                            BUSINESS MEETING

=======================================================================

                                 MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 2, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov       
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-932 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            DECEMBER 2, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Van Hollen, Hon. Chris, U.S. Senator from the State of Maryland, 
  prepared statement.............................................    54

                              LEGISLATION

S. 4897, ``American Nuclear Infrastructure Act of 2020,'' 
  amendment in the nature of a substitute........................    80
    Cardin Amendment #1, To reestablish United States global 
      leadership in nuclear energy, revitalize domestic nuclear 
      energy supply chain infrastructure, support the licensing 
      of advanced nuclear technologies, and improve the 
      regulation of nuclear energy, and for other purposes.......   141
    Revised Van Hollen Amendment #1, To reestablish United States 
      global leadership in nuclear energy, revitalize domestic 
      nuclear energy supply chain infrastructure, support the 
      licensing of advanced nuclear technologies, and improve the 
      regulation of nuclear energy, and for other purposes.......   151
General Services Administration resolutions......................   154

                          ADDITIONAL MATERIAL

Statement of the American Nuclear Society, December 1, 2020......     9
Letter to Senators Barrasso and Carper from ClearPath Action, 
  December 1, 2020...............................................    10
The American Nuclear Infrastructure Act provides bipartisan 
  support for nuclear innovation in the United States, 
  www.atlanticcouncil.org, December 9, 2020......................    12
Letter to Senators Barrasso and Carper from the Uranium Producers 
  of America, December 10, 2020..................................    14
BPC Action Applauds Bipartisan American Nuclear Infrastructure 
  Act, December 3, 2020..........................................    16
Letter to Senators Barrasso and Carper from the Chamber of 
  Commerce of the United States of America, December 1, 2020.....    17
Citizens for Responsible Energy Solutions Twitter thread, 
  November 20, 2020..............................................    18
CRES Welcomes Introduction of American Nuclear Infrastructure 
  Act, November 18, 2020.........................................    20
Clean Air Task Force Twitter thread, December 2, 2020............    22
Clean Air Task Force statement on EPW Passage of the American 
  Nuclear Infrastructure Act of 2020, December 2, 2020...........    23
Exelon Generation Twitter thread, December 2, 2020...............    25
Letter to Senator Barrasso et al. from the International 
  Brotherhood of Electrical Workers, December 1, 2020............    27
Letter to Senators Barrasso and Carper from the Clean Air Task 
  Force et al., December 11, 2020................................    29
Letter to Senator Barrasso et al. from the Nuclear Energy 
  Institute, November 20, 2020...................................    31
Letter to Senator Barrasso from the National Mining Association, 
  December 10, 2020..............................................    33
PSEG LinkedIn post...............................................    35
PSEG Twitter thread, December 8, 2020............................    36
TerraPower quote of support, December 3, 2020....................    37
Third Way Climate & Energy Twitter thread, November 17, 2020.....    39
Third Way Applauds Introduction of the American Nuclear 
  Infrastructure Act, November 17, 2020..........................    43
Global Energy Institute Twitter thread, November 17, 2020........    45
Letter to Senators Barrasso and Carper from the United States 
  Nuclear Industry Council, December 2, 2020.....................    46
Letter to Senators Barrasso and Carper from the Utility Workers 
  Union of America, December 1, 2020.............................    48
Letter from League of Conservation Voters et al., December 1, 
  2020...........................................................    57
Letter to Senators Barrasso and Carper from Accents Away et al., 
  December 1, 2020...............................................    61
Letter to Senators Barrasso and Carper et al. from the Nuclear 
  Information and Resource Service et al., November 30, 2020.....    66

 
                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 9:47 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Boozman, Wicker, Ernst, Cardin, Whitehouse, 
Merkley, Booker, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today we will consider the American Nuclear Infrastructure 
Act of 2020, as well as eight General Services Administration 
resolutions.
    Senator Carper and I have agreed that we will begin voting 
at 9:55. At that time, I will call up the items on the agenda. 
We will not debate the items on the agenda while we are voting. 
Instead, we will debate these items before we vote, and I will 
also be happy to recognize any member who still wishes to speak 
after the voting concludes.
    Last month, I introduced the American Nuclear 
Infrastructure Act with Senators Whitehouse and Crapo and 
Booker. I want to thank all of them for their efforts to craft 
this important legislation.
    I also want to thank Ranking Member Carper for working with 
all of us to draft a substitute amendment that I actually 
believe will improve the bill. So I want to thank you, as well 
as I want to thank Senator Capito, who cosponsored the bill as 
well.
    The American Nuclear Infrastructure Act will promote U.S. 
international leadership. It will preserve America's nuclear 
fuel supply chain, it will prevent more carbon emissions from 
entering our atmosphere, and it will protect our economic, our 
energy, and our national security.
    Advanced nuclear technologies will be safer, smaller, and 
more flexible. These designs will provide additional reliable, 
clean electricity in addition to the nuclear power that is 
available today.
    The bill supports pioneers who are developing new ways to 
generate nuclear power. It also supports innovators who are 
exploring new ways to use it. We can further reduce our 
emissions and strengthen our security by incentivizing new 
technologies that allow for nuclear power to be used beyond the 
electricity sector.
    Deploying new nuclear reactors will provide enormous 
environmental benefits. Innovation, not government regulations 
and taxes, to me, is the best way to address climate change.
    American uranium should fuel America's nuclear reactors. 
Wyoming is the leading uranium producer in the United States, 
but American producers continue to be threatened by our foreign 
adversaries.
    Russia and its allies have unfairly flooded the global 
uranium market with cheap nuclear fuel. This hurts our 
businesses, and it costs jobs.
    The American Nuclear Infrastructure Act establishes a 
national uranium reserve. The reserve will ensure that America 
is not dependent on our rivals for our nuclear fuel.
    Two years ago, this Committee worked to pass the Nuclear 
Energy Innovation and Modernization Act with overwhelming 
bipartisan support. I introduced that bill with Senators 
Whitehouse and Inhofe and Booker and Capito and Manchin and 
Crapo and Fischer. A bipartisan group of 11 additional members, 
including Senators Carper and Rounds and Duckworth, also joined 
as cosponsors.
    That bill laid the foundation for the development of safety 
rules that govern new advanced nuclear technologies. It also 
increased transparency and predictability in how the Nuclear 
Regulatory Commission recovers its funding.
    President Trump signed that bill into law in January 2019. 
The Nuclear Regulatory Commission continues to implement the 
law. While we move forward with today's bill, our Committee 
will continue to oversee how our previous bipartisan 
legislation is implemented.
    Again, I want to thank all the members of this Committee 
for working with me to introduce and improve the American 
Nuclear Infrastructure Act. I am going to continue to work with 
them as we move forward with this legislation.
    Last, we are going to consider eight resolutions to approve 
General Services Administration prospectuses. These will enable 
Federal agencies to update buildings to ensure safety and 
consolidate space, resulting in increased efficiency and fiscal 
responsibility.
    I would now like to turn to Ranking Member Carper for his 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks very much, Mr. Chairman.
    Good morning, colleagues, and welcome to the last Senate 
Environment and Public Works Committee business meeting of the 
116th Congress.
    Today marks the end of an era. It is the last EPW business 
meeting to be led by our friend and colleague, Chairman John 
Barrasso of Wyoming, better known as Bobbi's husband.
    Mr. Chairman, we are proud of what we have accomplished on 
this Committee these past several years by working together. I 
will just mention a few of those accomplishments if I may. In 
2018, we passed a comprehensive reauthorization of the Water 
Resources Development Act, and we are on the cusp of doing so 
again, here, this year.
    Last year, we unanimously reported out of Committee the 
most significant highway funding bill the Senate has ever seen, 
one with a substantial climate title that is included in it.
    In addition, we have enacted a slew of wildlife bills that 
improve conservation efforts, protect habitat and the creatures 
that God has placed on this Earth with all of us, and we 
reached a consequential bipartisan compromise to enact a 
nationwide phasedown of HFCs. That is worth a half-degree 
Celsius alone in the battle against the climate crisis. We have 
to get that bill passed and incorporate it into the omnibus 
bill literally today, I believe.
    I would be remiss not to mention one of my favorite moments 
that we have shared together: When a nominee sat right in front 
of us, from Wyoming, a long time friend of our Chairman, and 
testified at his confirmation hearing to be Assistant Secretary 
of the Interior.
    Your friend, Mr. Chairman, Rob Wallace, said these words: 
``Along the way, I have learned so much, especially that no one 
ever really wins by winning everything, that bipartisan 
solutions are always the lasting solutions.''
    Mr. Chairman, some of you may remember those that day, and 
I certainly do, but those words really struck a chord with me 
and a number of our colleagues as well. Because that is 
something all of us have learned along the way, too, that 
bipartisan solutions truly are lasting solutions.
    When I reflect on our work together over the last 4 years, 
colleagues, it gives true meaning to these words, because that 
is exactly what we endeavor to do on this Committee, and more 
often than not, we do it well. We foster lasting solutions to 
clean our air and our water and combat global warming while 
creating an environment that fosters economic growth and job 
creation.
    So thank you, Mr. Chairman, and a special thanks to your 
staff, led by Richard Russell. Some of those folks on your 
staff I suspect will go with you to the Energy and Natural 
Resources Committee, but a special thank you for bringing the 
timeless words into our lives of your friend, Rob Wallace, and 
into the work of our Committee.
    Coincidentally, this markup today falls on a monumental day 
for our Nation. Today is, as you may know, the 50th anniversary 
of the Environmental Protection Agency. Pretty amazing. Fifty 
years.
    In 1970, I don't know what the rest of you were doing, I 
was a young naval flight officer preparing to head out with my 
squadron out on our first of three tours in Southeast Asia.
    As our Nation waged a war abroad, we faced deepening 
divisions and mounting environmental crises right here at home.
    Polluters dumped waste into our waterways without 
consequence, factories released toxic fumes, and acid rain fell 
from the sky.
    In Cleveland, Ohio, just north of where I went to college 
at Ohio State, the Cuyahoga River was so polluted that it 
caught on fire.
    In California, where my squadron and I were stationed, an 
offshore oil rig spilled millions of gallons of oil onto the 
beaches. Many of us saw it with our own eyes.
    Smog in major cities around the country was so thick, you 
could almost cut it with a knife.
    In the face of all that adversity, the American people 
didn't just sit around and whine about it. They created a 
movement. Millions of Americans took to the streets calling for 
transformative action to protect our planet.
    In response, a Republican President, a Republican 
President, Richard Nixon, helped lead the efforts to create the 
Environmental Protection Agency, a new Federal agency with a 
mission of protecting human health and the environment.
    For 50 years, 50 years, the EPA has been instrumental in 
protecting our air that we breathe, cleaning up the water we 
drink, and improving public health.
    So as we celebrate the strides made over the last 50 years 
to clean up our air, improve public health, it is all so timely 
that our Committee is considering legislation that will help 
harness our Nation's potential for nuclear power, by far the 
largest source of clean, reliable, carbon-free energy in our 
country, and make it safer still.
    Today, we are considering the American Nuclear 
Infrastructure Act, as the Chairman said, of 2020, coauthored 
by our Chair and by Senator Booker and by Senator Whitehouse. 
We thank them for their collective efforts to support advanced 
nuclear technology.
    During our Committee hearing on this legislation in August, 
I shared some of my reservations, as some of you recall, about 
the bill, specifically, its proposed changes to the Nuclear 
Regulatory Commission's permitting process.
    Some of you may recall that we recently enacted the Nuclear 
Energy Innovation and Modernization Act, affectionately known 
as NEIMA, which made several necessary changes to the NRC's 
regulatory structure for advanced nuclear technologies.
    I feared that any additional and unwarranted changes to 
that structure could seriously disrupt the regulatory process, 
jeopardizing safety. I also expressed my concerns in creating a 
new but unfunded incentive program for existing nuclear 
industry at EPA would risk asking the agency to do more with 
far fewer resources.
    Given the budget restraints placed on the NRC through 
NEIMA, it was important to me and some of our colleagues that 
this legislation would not further strain the NRC in a way that 
jeopardizes safety and public health.
    For 6 months, my staff worked with the Chairman's staff and 
other folks around this room together, and I am happy to say, 
that our substitute amendment resolves and addresses the issues 
and concerns that we raised.
    I want to thank our Chairman, and I want to thank his staff 
for working with my staff. Supporting nuclear energy and 
advancing nuclear technologies is a high priority for many of 
us. So I am grateful that the Chairman's willingness to help us 
get to yes on this legislation has been successful. Always 
keeping our eye on safety. Always keeping our eye on safety.
    Today, we are also moving eight General Services 
Administration prospective resolutions, including one for a 
Veterans Administration building in Hawaii.
    I know there are several of us here on this Committee, 
including, I think, Senator Ernst, Senator Sullivan, and others 
that I may not be remembering right now, but they have served, 
I have served our country in uniform, and I know we take a 
special privilege in moving that GSA resolution out of 
Committee today.
    I want to conclude my remarks by briefly sharing with my 
colleagues the passage of S. 4684, I think it was passed last 
night in wrap up.
    It was introduced by a colleague and friend, Mike Enzi, one 
of his last bills, and it calls for the naming of a post office 
building in Thermopolis, Wyoming, after its former postmaster, 
Robert Brown, the late father of Bobbi Barrasso, our Chairman's 
wife.
    Robert Brown didn't just serve in the Army. He served with 
courage. He served with distinction, not just in World War II, 
but in Korea, as well. Many awards, many military awards, and 
recognitions, among them, the Bronze Star. He passed away 
earlier this year.
    What month was it, 2 months ago?
    Senator Barrasso. On 9/11.
    Senator Carper. On 9/11, at the age of 94.
    Several months before his death, Mr. Brown was driven to a 
treatment facility in Montana hundreds of miles away. How far 
away?
    Senator Barrasso. About 300 miles.
    Senator Carper. Three hundred miles away, and later that 
day, driven back to Wyoming after receiving his treatment. His 
driver for that memorable road trip was his son-in-law, our 
Chairman, John Barrasso, a man of many skills: Surgeon, talk 
show host, driver, and Chairman of the Committee that all of us 
revere.
    So, my friend, as you weigh anchor this year and set sail 
for your next assignment on the Senate Committee on Energy and 
Natural Resources, we all wish you, as we say in the Navy, fair 
winds, and a following sea.
    God bless you, Mr. Chairman.
    Senator Barrasso. Well, thank you so much, Senator Carper.
    Bob Brown actually worked at that post office for 44 years 
and was postmaster there. Remarkable man and a great man of 
courage.
    We have members here, and we are ready to vote. Let me 
just, before getting to that, I want to thank you for these 
wonderful years working with you as a partner. We have 
introduced, written, improved, passed, and implemented laws 
together, and we have done it in a cooperative and bipartisan 
way, and I could not have had a better partner.
    I remember calling you when it looked like I was going to 
be Chairman of the Committee, and asked if you were going to be 
the Ranking Member, and we had a long discussion. We said that 
we would work together, be honest with each other, open with 
each other, and work to improve our environment and the public 
works of this country. With you as a partner, we have been able 
to do that.
    For the benefit of all, we have done it in a bipartisan 
way. We haven't agreed on everything, but we have always 
followed that Mike Enzi rule: Let's leave out the stuff we 
don't agree on, adopt the things that we do, which is how we 
got 21 people to unanimously vote for water infrastructure, 
highway infrastructure, because we made sure that every member 
was heard. It has been wonderful to work with you.
    I know a number of members have additional places they need 
to get to, so with that, I am going to move ahead and as soon 
as we finish with the voting, I have Senator Whitehouse first, 
and then Senator Booker next to speak.
    But now that we do have all the members here, I want to 
move to a vote on the items of today's agenda. Members who have 
not yet discussed amendments that they have filed may do so 
after the voting concludes. The Ranking Member and I have 
agreed to vote on the eight GSA resolutions en bloc by voice 
vote. We have also agreed to vote on accepted amendments to the 
Nuclear Bill en bloc by voice vote.
    There has been a request for a recorded vote on final 
passage of the Nuclear Bill, and therefore we will have a 
recorded vote on that final passage. Members may choose to have 
their votes recorded for specific items in the en bloc of 
pieces of legislation.
    So now, I would like to call up the Barrasso-Carper 
Substitute Amendment to S. 4897, America's Nuclear 
Infrastructure Act of 2020. It was circulated last Friday.
    The Ranking Member and I have agreed that this substitute 
shall be considered the original text for purposes of 
amendments. Members have filed amendments to the substitute.
    The Ranking Member and I have agreed to revise the filed 
version of the Van Hollen No. 1 to reflect necessary 
modifications. I am pleased to accept revised Van Hollen No. 1.
    The Ranking Member and I have agreed to vote on Cardin No. 
1 and revised Van Hollen No. 1 en bloc by voice vote.
    I would like to call up Cardin No. 1 and revised Van Hollen 
No. 1 en bloc and ask that members withhold discussion on their 
agreed upon amendments until after we complete the voting.
    I move to approve Cardin 1 and revised Van Hollen 1 en 
bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. Cardin No. 1 and the revised Van Hollen No. 1 are 
agreed to.
    Again, I am happy for members who want to discuss other 
amendments to do so after the voting concludes without offering 
them now.
    Any Senators seek recognition to offer an amendment?
    Seeing no member wishing to offer an amendment, I move to 
approve the substitute amendment to S. 4897 as amended and 
report S. 4897 as amended favorably to the floor.
    We will hold a roll call vote. Is there a second to do 
that?
    Senator Carper. Second.
    Senator Barrasso. The clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. Yes.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mr. Braun.
    Senator Braun. Yes.
    The Clerk. Ms. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Cramer.
    Senator Cramer. Aye.
    The Clerk. Ms. Duckworth.
    Senator Carper. No by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Carper. No by proxy.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Sullivan.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The clerk will report.
    The Clerk. Mr. Chairman, the yeas are 16, the nays are 5.
    Senator Barrasso. Can you repeat that, so I can hear you 
clearly?
    The Clerk. The yeas are 16, the nays are 5.
    Senator Barrasso. The yeas are 16, the nays are 5. We have 
approved S. 4897 as amended, which will be reported favorably 
to the Senate.
    I would now like to call up eight General Service 
Administration resolutions en bloc.
    I move to approve the eight GSA resolutions en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. The opinion of the Chair is that the ayes 
have it; we have approved these resolutions.
    The voting part of the business has been concluded.
    I am now happy to recognize any member who wishes to make a 
statement on the legislation or resolutions we have just 
approved.
    I do ask unanimous consent that the entire statements of 
the records of support of the American Nuclear Infrastructure 
Act be included in the record of today's meeting, without 
objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Senator Barrasso. I would like to now turn to Senator 
Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Let me first say 
that this is the third, now, nuclear bill that this Committee 
has approved in bipartisan fashion, the first being the Nuclear 
Energy and Innovation Capabilities Act, the collaboration bill, 
as I call it, and the second, the Nuclear Innovation and 
Modernization Act, which was the regulatory upgrade bill, and 
now this one, which has the support of environmental groups, of 
labor groups, of advanced nuclear companies, and of industry 
groups.
    I particularly want to thank Chairman Barrasso and Ranking 
Member Carper for their productive work to bring us to this 
place.
    I want to thank the cosponsors, many of whom brought 
significant improvements to the bill, including the 
improvements adopted by vote today.
    To those members who are not yet comfortable with the bill, 
I look forward to continuing to work with you to try to resolve 
your concerns and advance the bill so that it can pass smoothly 
on the floor. The three pieces of the bill that I want to focus 
on in my remarks are ones that I have been talking about for a 
long time, and I am really grateful that they are included.
    The first is that this creates a mechanism to put a value 
on the carbon-free nature of nuclear energy. We have seen the 
really unfortunate situation of safely operating nuclear plants 
being closed down for false economic reasons to allow natural 
gas plants to stand up, polluting natural gas plants, to stand 
up in their place. The discrepancy is that the nuclear plants 
don't get any value, any benefit, out of the carbon-free nature 
of their power. This will start us addressing that.
    Second, as we address the next generation of nuclear power, 
we need to make sure that it is focused as much as can be on 
the existing nuclear waste liability of the country as a fuel 
prospect. If we can turn that liability into an asset, that 
would be a remarkable achievement. But it is not going to 
happen without encouragement because the cheaper way to go is 
always going to be to use something new. So I appreciate very 
much the X Prize program toward reusing spent nuclear fuel in 
next generation technologies.
    Last, if we were a big corporation, our auditors would come 
in every year and would take a look at our nuclear waste 
stockpile, and they would put a mark on the company's books, 
saying this is a liability. Let's say it is a billion-dollar 
liability. That would give us, as a company, a $999 million 
incentive to get that liability off our books, and we would be 
devoted to trying to clean up that nuclear waste stockpile 
problem.
    That is not the way the United States works. It is not on 
our books. So the report that this requires of what the 
liability cost is of that, we call it a stockpile, but a 
stockpile is usually a good thing.
    This is not a stockpile of good things. This is a huge 
environmental hazard and security hazard. The cost of disposing 
of that hazard will now actually be quantified, so at least we 
can discuss and provide value to the technologies that will 
help strip that away.
    So with appreciation to all of my colleagues, including 
those who are not yet satisfied with the bill, I conclude my 
remarks, and I will regret losing John Barrasso as Chairman 
here. I look forward to working with the next Chairman.
    I am not a member of Energy and Natural Resources, so there 
is a farewell here as well. I know you are not leaving the 
Committee; you are just leaving the Chair, and I hope we can 
find other good things to do together.
    So thank you very much, Chairman Barrasso, farewell.
    Senator Carper, thank you for your terrific leadership of 
this Committee as our Ranking Member in this Congress.
    Senator Barrasso. Well, thank you so much, Senator 
Whitehouse. We have actually traveled the world together 
looking at the issues related to climate change and the impact. 
I know that the work that we are doing here in the Committee is 
going to have a valuable role into the future of our world.
    Senator Booker.
    Senator Booker. Mr. Chairman, I am grateful, and I want to 
thank you for your service as leader and for doing such good 
work in helping us to find, despite the differences between so 
many of the members, common ground that we can work on together 
and to actually make a significant difference in our country.
    Of course, I want to thank Ranking Member Carper, who, even 
though he is 3 or 4 years older than me, always makes me feel 
like I am out of shape. He has been an extraordinary leader as 
well.
    Senator Barrasso. Just as a point of personal interest, so 
when he talked about that first founding, 50 years ago, the 
first Earth Day was 50 years ago, he was in the military, do 
you want to talk about what you might have been doing on that 
very first Earth Day, and how you celebrated?
    [Laughter.]
    Senator Booker. I am going to show some wisdom here and 
move on.
    [Laughter.]
    Senator Booker. I want to thank Senator Whitehouse for his 
extraordinary partnership on this issue, in general, as well as 
Senator Crapo for his partnership as well.
    Look, we have a climate crisis, and I believe that nuclear 
energy has a really important role to play as we work to 
transition to a net zero carbon emissions as quickly as 
possible in order to avoid the worst impacts of climate change, 
the devastating realities of where our planet is right now, 
which is in peril.
    I am excited about a lot of parts of this bill, some of 
which were already highlighted by Senator Whitehouse. But I 
want to just really focus on three.
    Right now, we have to understand that our existing nuclear 
reactors provide the majority, the majority, of carbon-free 
electricity that is currently generated in the United States. 
Losing these plants prematurely, especially in a market that 
does not reflect fairness because they are not subsidized to 
the degree that should be reflected in the carbon that is 
created in other types of energy, this would be unfortunate. 
This would be wrong, and this would contribute to climate 
change, as opposed to helping to cure it. Preventing our 
existing fleet of nuclear reactors from shutting down 
prematurely should be an urgent cause if we are serious about 
climate change.
    Second, this is an area of science that needs more 
research. We need more innovation. We have been losing our 
competitive advantage globally when it comes to research in 
this area. So the creation of an X Prize and other provisions, 
this bill will help facilitate the development of the next 
generation of advanced nuclear reactors.
    A lot of the science that I have read over the last few 
years has shown incredible promise that these reactors can be 
far safer, more economical, generate less waste than existing 
reactors, and really, some of the breakthroughs that are being 
foreshadowed could be out of science fiction in terms of what 
they could create. We can't allow the best of nuclear energy 
research innovations and breakthroughs to be cornered by other 
people around the planet. We need to be on the front lines of 
that, and this X Prize will help with that.
    Finally, a big issue, and I am proud to be one of the 
cofounders of the Environmental Justice Caucus here in the 
Senate, and one of the urgent issues we have in this country 
that is not talked about enough is the severe reality that many 
Americans do not have access to clean air, clean water, live in 
toxic environments that cause them untold human suffering.
    This bill authorizes a billion dollars of new funding for 
the EPA to clean up abandoned uranium mines on tribal lands. 
These abandoned mines can be serious threats to public health 
for indigenous communities. Cleaning up this toxic legacy 
pollution should be an urgency for this Nation. It is an issue 
of environmental justice. It is, in many cases, and could be, 
rather, a life or death situation.
    I am proud of the bipartisan work we have done in this 
Committee and over the years related to nuclear energy, and I 
believe we have now crafted another very important piece of 
legislation. I look forward to continuing the work together, 
and I want to thank you for the time.
    Senator Barrasso. Thank you for your continued leadership 
on this and so many other important topics.
    Senator Cardin.
    Senator Cardin. First, Mr. Chairman, I do want to also join 
our other colleagues in congratulating you on your leadership 
in this Committee. It really has been a pleasure to serve here 
as we have gotten constructive work done under your leadership 
and Senator Carper's leadership.
    In the area of nuclear power, the accomplishments show, 
including what we are able to do today, so thank you.
    Nuclear power is critically important to this country. As 
Senator Booker has pointed out, the reliance on nuclear power 
today is dramatic. It is carbon-free. It does help us with 
climate change.
    But let's look at the realities. Our nuclear reactors are 
old, and they need attention, and they need modernization and 
replacement.
    The economics of nuclear power today in the energy field is 
not as promising as it was when we started out on nuclear 
energy. So this legislation helps us deal with the realities of 
moving forward with nuclear power in this country. I applaud 
you on the efforts in getting such strong support in this 
Committee. Obviously, we still have some work to do.
    I thank you for incorporating into the vote today the 
amendment that I offered that increases the nuclear reactor 
incentives from 2 years to 4 years, which is more realistic on 
the needs that are out there. I thank you for incorporating 
that change.
    On the other matter we took up today, I will be very brief, 
on the GSA resolutions, I didn't object to any of them. I just 
want to make two observations. One, there is a courthouse 
renovation in Missouri for $50 million. The justification is 
certainly very significant, safety concerns concerning a 
curtain wall. So therefore I did not object.
    But I do point out, this was a building built in the 1990s. 
It passed with very high ratings by the Administrative Office 
of the Courts in 2012. We have still not resolved how we are 
dealing with new courthouses. I hope in the next Congress, we 
will take a stronger look at the maintenance and replacements 
of courthouses in this country.
    The second issue is that there is an FBI modernization in 
Ohio, which I support. But I hope in the next Congress, and I 
thank you for your leadership in dealing with the FBI 
headquarters here in the DC area, recognizing that there has 
been a need for a campus consolidation to replace the 
Pennsylvania Avenue facility, I really hope we will get back on 
track on that in the next Congress, and I thank you and Senator 
Carper for your leadership on this issue during this Congress 
during some very difficult moments.
    I think we will have, I hope, we will have a constructive 
way forward in the next Congress.
    With that, Mr. Chairman, I thank you again for your 
leadership.
    Senator Barrasso. Well, thank you, Senator Cardin. As I 
said to Senator Van Hollen here, sandwiched between the two 
Maryland Senators, you know that from the standpoint of the 
Chesapeake Bay with my old Uncle Pete's Italian restaurant 
there in Dundalk, Maryland, that hopefully from their 
standpoint, I was a good partner in a bipartisan way on issues 
related to the Chesapeake Bay and the Patapsco River.
    Senator Van Hollen. Thank you, Mr. Chairman. Thank you for 
your support on the Chesapeake Bay cleanup efforts together 
with Senator Cardin, Senator Carper, and others from the Bay 
State areas. I too want to thank you for the way you have 
conducted this Committee during your tenure. I appreciate it, 
along with the Ranking Member. While we have had our 
disagreements on a number of issues, we have also been able to 
find common ground on a number of important measures.
    On this bill, I do believe that the benefits outweigh the 
downsides, and I am supporting it. I think nuclear power is an 
important part of our energy mix, especially with respect to 
achieving our goals of combating climate change.
    I think Senator Booker and others have pointed out that 
more than half of the carbon-free energy produced in the United 
States comes from nuclear power. I think advanced nuclear 
reactors can play an important role in furthering our goal of 
addressing climate change. So I appreciate the elements in the 
bill on that front.
    I will say, Mr. Chairman and Ranking Member, I would not 
have supported the bill but for the additional provisions in my 
amendment, and thank you for supporting that. We have to be 
very alert to the dangers of nuclear proliferation. While I 
think that advanced nuclear reactors have a promising role 
globally in terms of combating climate change, we also need to 
make sure that these fuels are not diverted for malign 
purposes.
    That is why, for the first time in this legislation, we 
will be providing a structure to address those important 
issues. So I am very pleased those are included in this bill.
    I do have some serious concerns with certain elements of 
the bill, and Mr. Chairman, I just ask unanimous consent to 
include my full statement in the record.
    Senator Barrasso. Without objection.
    Senator Van Hollen. Thank you.
    [The prepared statement of Senator Van Hollen follows:]

                  Statement of Hon. Chris Van Hollen, 
                U.S. Senator from the State of Maryland

    Mr. Chairman, I am glad that the Senate Environment and 
Public Works Committee came together on a bipartisan basis to 
pass legislation that will strengthen our nuclear 
nonproliferation and export control policy, sustain the 
existing fleet of nuclear reactors, and facilitate the 
development of advanced reactor designs. On balance, with the 
inclusion of my amendment, this bill serves our 
nonproliferation interests, and I believe it expands our 
carbon-free energy options. But there are a number of troubling 
provisions that I would seek to amend as it moves forward and 
through the appropriations process.
    I appreciate that my colleagues on the Senate Environment 
and Public Works Committee adopted my amendment to reinforce 
nonproliferation and nuclear security guardrails for the new 
generation of nuclear reactors and fuels. Facilitating the 
development and eventual export of advanced nuclear 
technologies must only proceed in tandem with steadfast efforts 
to stop the spread of nuclear weapons and thwart nuclear 
terrorism. My amendment prevents foreign buyers from misusing 
or diverting U.S. made nuclear technologies for weapons 
purposes or from leaving them vulnerable to theft or sabotage. 
I will build on this effort in the new Congress next year and 
ensure that our nuclear export policy converges with our 
nonproliferation goals.
    I also appreciate ANIA's provision to establish a credit 
program for nuclear power plants facing potential closure due 
to economic headwinds. Generating approximately 20 percent of 
our country's electricity and over half of our carbon-free 
energy, nuclear power is an essential prong in our efforts to 
achieve net zero carbon emissions and mitigate the impacts of 
climate change. This bill, through the extension of credit 
incentives, would keep our existing fleet of nuclear reactors 
safely operating online and contributing clean energy to the 
grid. Additionally, it will help level the playing field for 
safe nuclear power plants that compete against carbon emitting 
natural gas plants backed by Federal subsidies. While it is 
outside of the scope of this bill, I would urge my colleagues 
to maintain, and in some cases expand, tax incentives and other 
financial support for other key parts of our clean energy 
sector, including solar and wind, efficiency, and energy 
storage, that face challenges and can be powerful drivers of 
economic growth.
    Yet, while I am voting to pass the bill from the Committee, 
I do have significant reservations.
    Above all, I oppose ANIA's provision to create an 
unnecessary and costly domestic uranium reserve, and I 
cosponsored an amendment to strike this provision from the 
bill. Given the abundant supply of uranium in the market and 
our country's large stocks of uranium for defense needs, there 
is no economic, technical, or strategic reason to establish 
this reserve. Expanding uranium mining operations at this 
juncture will only cause further environmental damage, imperil 
the health and safety of mining impacted communities, and 
inject unnecessary volatility into uranium markets. ANIA's 
provision allocates no funding for the reserve's establishment, 
and I will oppose through the appropriations process any 
funding for this purpose. Furthermore, I will work with my 
colleagues on the Senate Environment and Public Works Committee 
to protect communities across the country suffering from the 
environmental fallout of uranium mining. I also share the 
interest of many of my colleagues on the Committee in providing 
maximum support to assist nuclear communities that have been 
hit hard by the closure of nuclear power plants.
    I am disappointed that this bill fails to overturn the 
budget caps--codified in the Nuclear Energy and Modernization 
Act--on the Nuclear Regulatory Commission's (NRC) corporate 
support costs. Setting artificial limits on the amount of money 
the NRC can request in its budget to carry out important 
functions, like human resources management, personnel 
background investigations, and information technology services, 
risks straining the NRC's budget and compounding staffing 
issues at the Commission. As the regulatory agency charged with 
ensuring that our nuclear power plants operate safely and 
securely, the NRC must be fully equipped to carry out its 
functions.
    While I oppose some of the provisions in this bill and am 
disappointed by its failure to address certain issues, on the 
whole, ANIA will underpin a strong nonproliferation policy, 
advance efforts to expand alternatives to carbon emitting 
fuels, and help combat climate change. For that reason, I voted 
in support of passing the bill out of Committee. As ANIA 
continues on its legislative journey through the Senate and 
House, I will work to protect the important provisions of this 
bill and remove those that are counterproductive.

    Senator Barrasso. I see both Senator Markey and Senator 
Merkley in the room.
    Would either of you like to be recognized?
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much. I wish 
we were celebrating today with a catered meal from Uncle Pete's 
Italian Restaurant in Maryland.
    What is really amazing is how no one would ever answer the 
question correctly from New Jersey or Massachusetts or Rhode 
Island, as to which State had two Italian Senators, and 
Wyoming, of course, is the Jeopardy answer that no one would 
ever guess in our country.
    So we thank you for your service, and Bobbi's, for all of 
these years here. Thank you.
    While I appreciate the work that the Ranking Member and 
other members of the Committee have done to improve the 
American Nuclear Infrastructure Act of 2020 from earlier 
versions, unfortunately, what the majority is doing today still 
represents a bad deal for the country, the climate, and our 
environmental justice communities.
    Inside this bill, there is a cash bailout of our Nation's 
most decrepit and un-economic nuclear power plants, a bailout 
that could cost more than $1 billion. This isn't cash for 
clunkers; this is clunkers getting cash.
    Now, the majority will say that we need to do this to 
increase the reliability of our electric grid. Well, let me 
tell you what has already happened this year in 2020 in the 
midst of a pandemic. The United States has added more than 
33,000 new megawatts of wind and solar. How many new megawatts 
of nuclear have we added? None. Zero. Last year? Zero. Year 
before? Zero. Next year? Zero.
    My Republican friends will say that wind and solar isn't 
the same as nuclear. But even adjusting for the efficiency of 
wind and solar compared to nuclear, that is the same as adding 
12 new 1,000 megawatt nuclear power units this year to the grid 
of the United States. Twelve 1,000 megawatt nuclear power 
plants, this year, and next year, and the year after, and the 
year after, and the year after, while we are waiting for the 
first nuclear power plant to come online in this generation. 
That would be just one plant that generated maybe 1,000 
megawatts, maybe, one plant.
    So, at the same time that the majority is trying to bail 
out the most decrepit, un-economic, poorly run nuclear plants 
in the country, they are refusing to work with Democrats to 
extend the tax credits for wind and solar, which are 
supercharging our electric grid and our economy.
    I would be willing to talk about a program to support 
nuclear power, but you just can't have one side of the 
conversation. You can't make it harder for wind and solar to 
succeed by propping up nuclear power at the expense of other 
technologies.
    If we subsidize old nuclear plants without planning for a 
long term clean energy transition, that allows utilities to 
greenwash their portfolio. Providing additional help for 
existing nuclear power means these utilities could meet State 
and other clean energy targets without having to actually bring 
on any new clean energy generation. They are just meeting them 
with a decades old fleet.
    That is not going to solve the climate crisis, and we have 
already seen that start to happen in States with nuclear 
handout schemes.
    These programs aren't working to keep gas off the grid long 
term. They are keeping new renewables off the grid, and even 
with the bailout, these decrepit plants can't be kept online 
forever.
    Without actually supporting new clean energy generation, we 
are just deferring the emissions crisis. That is not supporting 
a clean future. It is selling it off.
    For anyone who thinks this nuclear bailout is a new idea, 
it is not. It is just one-half of former Secretary Rick Perry's 
attempted bailout of the coal and nuclear industries.
    This idea to bail out our nuclear fleet is so old and 
outmoded that I think it would actually qualify for cash 
payments under this bill. This same old plan we see in this 
bill, payments to keep un-economic plants on the grid, was 
opposed by everyone from the NRDC to the Heritage Foundation. 
In fact, this bill was opposed by the NRDC, the League of 
Conservation Voters, and more than a hundred other groups.
    I would like to ask unanimous consent to submit these three 
letters from these groups into the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Senator Markey. Not only that, this bill would roll back 
current prohibitions on foreign ownership of our nuclear 
plants, common sense prohibitions that have been on the books 
for nearly 70 years, and the bill also sets the stage for 
further undermining of our nuclear safety regulations.
    Since the pandemic started, we thankfully haven't had any 
meltdowns at any nuclear plants or any terrorist attacks, 
despite the fact that plants and the NRC have tried to keep 
folks offsite when possible because of the pandemic.
    But this bill would have the NRC view that track record 
during the pandemic as a lesson to learn from. The fact that we 
avoided tragedy is not a lesson; it is luck. But this bill 
would try to enshrine that luck into law for all plants 
everywhere, even after the pandemic is over.
    Here is this bill's answer to ailing nuclear plants. We 
would start with cash payments to our most ancient nuclear 
plants. Then the bill would allow foreign entities to swoop in 
and buy them. Then after that, it would continue rolling back 
safety requirements and inspections that are meant to make sure 
nuclear plants can respond to armed terrorists, all while 
Republicans are blocking any conversation on renewable energy 
solutions.
    And we would do so without, in fact, talking about wind and 
solar storage battery technologies and other investments that 
are needed in order to move forward in the future.
    Just when you thought there couldn't be any more 
radioactive ideas tucked into the bill, it would also prop up 
the dirty, dangerous uranium mining industry by creating 
artificial Federal demand for a toxic product. This bill would 
contribute to an ongoing environmental public health injustice 
crisis in the American West. Most at risk are the indigenous 
communities already devastated by mining pollution and the 
ongoing COVID-19 pandemic.
    We already have a uranium mine contamination crisis in this 
country, and we have a climate crisis in this country. This 
bill is a Trojan horse; whole new problems masquerading as 
half-solutions. For these reasons, I oppose this legislation, 
Mr. Chairman.
    Senator Barrasso. Well, thank you very much, Senator, for 
your comments.
    I would note that nearly two dozen organizations support 
the legislation, including environmental groups, such as the 
Clean Air Task Force, the Nature Conservancy, the Center for 
Climate and Energy Solutions, and A Third Way, as well as labor 
organizations such as the International Brotherhood of Electric 
Workers, IBEW, and the Utility Workers Union of America.
    At this point, I ask unanimous consent that the staff have 
the authority to make technical and conforming changes to each 
of the matters approved today, and with that, this business 
meeting is concluded.
    Thank you very much.
    [Whereupon, at 10:26 a.m., the business meeting was 
adjourned.]
    [Legislation submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
